February 27, 1997
REPORT FOR THE SECRETARY ON CIVIL RIGHTS ISSUES - PHASE
I
FROM: Roger C. Viadero
Inspector General
SUBJECT: Farm Loan Programs - Civil Rights Complaint System
Evaluation Report No. 50801-2-Hq(1)
On December 9, 1996, you informed me of your concern about the effectiveness
of the Department's work with socially disadvantaged and minority farmers
and ranchers. This concern was raised partly by recent allegations that
the Department discriminates against these farmers in the delivery of farm
loan programs, and partly by apprehensions about the adequacy of the Department's
programmatic civil rights complaint system. You asked me to investigate
the Department's efforts in responding to complaints of discrimination
and provide you with a preliminary report as soon as possible. The purpose
of this report is to provide you with our results to date.
SUMMARY:
We determined the number of outstanding complaints of discrimination
made by farmers against the Farm Service Agency (FSA), as well as the number
of FSA employees assigned to resolve these complaints. Our figures show
that as of January 27, 1997, FSA had two people at the national office
assigned to process program complaints and maintained a backlog of 241
complaints.
Although FSA temporarily detailed more staff to process complaints,
we had difficulty in determining from FSA's records the number and status
of all complaints. Staffing problems, obsolete procedures, and little direction
from management have resulted in a climate of disorder within the civil
rights staff at FSA. Little is accomplished to process complaints, and
little is done to track their status. We subsequently developed our own
data base to compile reliable figures. As of January 27, 1997, we identified
230 outstanding program complaints at FSA. We had similar problems determining
the number of outstanding complaints at the Department because there was
no reliable filing system and the data base of cases contained incomplete
or inaccurate information. At the Office of Operations - Civil Rights Enforcement
and Adjudication (CREA), we developed a data base of 198 complaints for
FSA, some of which were on FSA's list and some of which were not. Between
the two lists, we counted a total of 272 unduplicated cases and determined
that 241 of these were open, of which at least 106 involve race, color,
or national origin. (See attachment A.)
As is evident from the data we were able to collect, there is a large
backlog of complaints in FSA as well as other departmental agencies. Many
of these complaints are more than a year old. The backlog has grown in
recent months largely because there is no accountability within the Department.
No fewer than three staff groups in the Department are responsible for
segments of the complaints process in FSA, but no group has exercised overall
authority and no group is constrained by a deadline. The FSA staff assigned
to review complaints operates from an obsolete handbook; the departmental
staff (in the Office of Operations) that determines the validity of complaints
does not follow up with FSA to ensure some action has been taken; and the
departmental agency (Policy Analysis and Coordination Center) that oversees
civil rights compliance is not monitoring FSA's caseload adequately to
report the backlog.
To deal with the backlog on an immediate basis and to help restore integrity
and public confidence in the Department's complaint system, the Secretary
should convene an ad hoc team and assign it the control of the complaint
system within the Department. This team should be headed by an official
appointed by the Secretary who will be acting on behalf of the Secretary.
Team members should consist of program specialists detailed for a minimum
of 60 days to process complaints until the backlog reaches a manageable
level, as determined by the Secretary. To deal with complaints in the future,
the Secretary should consider centralizing control over the complaints
process by giving one staff authority to oversee all phases of a complaint.
In a response to this report, the Secretary stated that the immediate
actions suggested in this report will be helpful as the implementation
team designs a plan to reduce the backlog of civil rights program complaints
within the Department. The Secretary's response is included as Attachment
C to this report.
OBJECTIVES:
You asked that we address the following issues.
1. Determine the number of outstanding complaints which allege discrimination
in farm loan programs, including the dates filed and status in complaint
investigation and resolution process; determine the number of full-time
equivalents committed to resolving these complaints; and recommend a plan
of action for prompt resolution of these complaints.
2. Assess participation of minorities and socially disadvantaged persons
in FSA's farm loan programs; determine whether the percentage of participation
correlates to the total population, by nation, State, and county.
3. Determine if FSA offices provide sufficient technical assistance
to help these farmers apply for and receive program benefits and if FSA
processes minority farm loan applications and servicing requests in the
same manner as loan applications and servicing requests from white farmers.
This Phase I report addresses Issue No. 1. We are currently gathering
data that will assist us in addressing Issues Nos. 2 and 3. After we gather
this information, we plan to visit selected FSA field locations. Therefore,
our evaluation is continuing, and further issues will be reported in later
documents.
SCOPE:
The primary focus of our evaluation to date has been on farm loan program
complaints involving minority and socially disadvantaged farmers and on
the Department's civil rights program complaint system. We emphasized compliance
with Title VI of the Civil Rights Act of 1964, which prohibits discrimination
on the basis of race, color, or national origin. As part of our review,
we gathered information on complaints in other FSA programs as well as
complaints involving other categories of discrimination such as age, sex,
handicap, and religion. We also gathered general information on the civil
rights program complaint system in other major departmental agencies to
help us assess how well the Department, at large, was processing these
complaints.
To determine the number of outstanding farm program discrimination complaints,
we gathered data from FSA's Civil Rights and Small Business Utilization
Staff (CR&SBUS) and interviewed CR&SBUS staff responsible for processing
the complaints. We examined data at the Office of Operations, Civil Rights
Enforcement and Adjudication (CREA) division and interviewed staff to reconcile
the outstanding farm program complaints we found at CR&SBUS with those
we found listed at CREA. In addition, we obtained information on the number
of closed farm program complaints since 1993. We also examined departmental
regulations, policy, guidance, and procedures for processing complaints.
Our evaluation makes a distinction between federally assisted programs
and federally conducted programs. Federally assisted programs are programs
for which Federal financial assistance is rendered to an organization that
is required to provide specified benefits to producers (farmers or program
participants). Federally conducted programs are programs administered directly
to participants through agency offices. All of the complaints we reviewed
were program complaints from individuals that allege discrimination under
federally conducted programs. Although our evaluation is focusing on federally
conducted programs, we consulted the June 1996 report of the U.S. Commission
on Civil Rights, titled Federal Title VI Enforcement to Ensure Nondiscrimination
in Federally Assisted Programs, in conducting our review and preparing
this report.
Our review of outstanding program complaints is continuing. We drafted
a letter which was signed by the Secretary on February 11, 1997, requesting
each FSA State Executive Director to provide OIG with the status of outstanding
program discrimination complaints in process in his/her State.
BACKGROUND:
There are several statutes prohibiting discrimination in Federal programs
because of race, color, national origin, sex, age, religion, and so forth.
For purposes of our evaluation, we emphasized Title VI of the Civil Rights
Act of 1964, which provides that: No person in the United States shall,
on the ground of race, color, or national origin, be excluded from participation
in, be denied the benefits of, or be subjected to discrimination under
any program or activity receiving Federal financial assistance. To
implement the Title VI enforcement, Congress vested the President with
the authority to approve all rules, regulations, and orders issued by Federal
agencies. The President has delegated his Title VI coordination functions
to the Attorney General in a series of Executive orders.
To enforce Title VI requirements within the Farm Service Agency, several
agencies and staffs are involved.
- Department of Justice (DOJ). The DOJ has been given the responsibility
for ensuring that Federal agencies meet their Title VI implementation,
compliance, and enforcement obligations. Specifically, Executive Order
No. 12250, issued in 1980, gives the DOJ the authority to direct the Federal
agencies in their Title VI implementation, compliance, and enforcement
activities.
- Policy Analysis and Coordination Center (PACC). PACC, a USDA
agency under the Assistant Secretary for Administration, is responsible
for civil rights policy, compliance, and evaluation. This includes developing
departmental regulations for processing program discrimination complaints
to ensure uniformity among the agencies within the Department.
- Office of Operations, Civil Rights Enforcement and Adjudication
(CREA). CREA, in the Department's Office of Operations, is responsible
for processing program discrimination complaints received by the Department.
All discrimination complaints for federally conducted programs are forwarded
to CREA. CREA reviews the complaint initially to ensure it contains sufficient
information to lead to a determination of alleged discrimination under
Title VI. If the information is found to be insufficient, a letter is sent
to the complainant requesting more. The complainant has 20 days to respond
and if no response is received within 20 days, the complaint is closed.
CREA forwards written complaints that contain sufficient information
to the appropriate agency, asking the agency to attempt conciliation of
the complaint. If a conciliation agreement is reached between the agency
and the complainant, the agreement is forwarded to CREA for final approval
and closure. If conciliation is not successful, the agency is instructed
to perform a preliminary inquiry and make recommendation of a finding of
discrimination or no discrimination. CREA then performs its own analysis
of the complaint and the preliminary inquiry and makes a recommendation
to the Assistant Secretary for Administration on the finding of discrimination
or no discrimination. After the final determination has been made, the
agency is notified of CREA findings and informed of the corrective actions
needed.
- Farm Service Agency, Civil Rights and Small Business Utilization
Staff (CR&SBUS). The CR&SBUS staff, located at FSA's national
office, is responsible for handling program discrimination complaints within
FSA. Program discrimination complaints received by FSA are forwarded to
CREA. When CREA returns the complaint to FSA with instructions to conciliate
or perform a preliminary inquiry, CR&SBUS forwards the complaint to
the appropriate State and requests that a conciliation agreement be reached
with the complainant or that a preliminary inquiry be performed.
The applicable State Civil Rights Coordinator in FSA is responsible
for obtaining the conciliation agreement or performing the preliminary
inquiry. The conciliation agreement or the preliminary inquiry report is
forwarded to CR&SBUS. If a conciliation agreement is reached with the
complainant, CR&SBUS forwards the agreement to CREA and recommends
the discrimination complaint be closed. If a preliminary inquiry is performed,
CR&SBUS analyzes the information and determines if discrimination was
found. CR&SBUS then forwards the preliminary inquiry and its analysis
to CREA with its determination.
The Department has codified regulations, 7 CFR part 15 - "Nondiscrimination,"
which states USDA's policy of nondiscrimination in federally assisted and
conducted programs in compliance with Title VI of the Civil Rights Act
of 1964. The regulations could serve as a basis for civil rights compliance
and enforcement. However, the regulations are outdated and do not reflect
the current departmental agencies, programs, and laws.
The current Departmental Regulation 4330-1, dated June, 27, 1986, sets
the departmental policy for program compliance reviews, but does not provide
policy and guidance for processing program discrimination complaints.
On December 12, 1994, in a management alert to the then Office of Civil
Rights Enforcement, we reported problems with how the Department received,
processed, and resolved program discrimination complaints. We recommended
that a departmental regulation be promulgated that sets forth the authorities
of the Office of Civil Rights Enforcement and that written procedures and
controls be established governing the receipt, processing, and resolution
of program discrimination complaints within established timeframes. In
response, the Department revised its Departmental Regulation 4330-1 to
include guidance on processing program discrimination complaints. However,
the regulation is still in draft form and no timeframe has been set to
publish it.
As mentioned earlier, the U.S. Commission on Civil Rights issued a report
in June 1996, titled Federal Title VI Enforcement to Ensure Nondiscrimination
in Federally Assisted Programs. This report had several findings and
recommendations applicable to the USDA complaints processing system. We
are considering this report as our evaluation continues.
ISSUE AREAS
ISSUE NO. 1 - IMMEDIATE ACTIONS NEEDED TO CLEAR COMPLAINTS
BACKLOG
We reviewed program complaints within the Farm Service Agency as well
as 10 other agencies within the Department. We concluded that immediate
action is needed to clear a backlog of complaints, particularly in the
Farm Service Agency.
Farm Service Agency (FSA)
The program discrimination complaint process at FSA lacks integrity,
direction, and accountability. The staff responsible for processing discrimination
complaints receives little guidance from management, functions in the absence
of any current position descriptions or internal procedures, and is beset
with its own personnel EEO problems. The staff also processes discrimination
complaints without a reliable tracking system to determine the status of
the complaints and, apparently, without deadlines to resolve the complaints.
The resulting climate of disorder has brought the complaint system within
FSA to a near standstill. Little gets accomplished to resolve discrimination
complaints or to make program managers aware of alleged problems within
their programs. After developing our own data base of unresolved cases,
we determined that as of January 27, 1997, FSA had an outstanding backlog
of 241 complaints.
The FSA staff responsible for processing discrimination complaints,
the Civil Rights and Small Business Utilization Staff (CR&SBUS) has
two full-time program specialists working to resolve program complaints.
These program specialists are supplemented by an administrative assistant
who provides secretarial support and two staff assistants who maintain
case files and the tracking system. The two program specialists and the
two staff assistants transferred to FSA from the civil rights staff of
the former Farmer's Home Administration (FmHA) during the Department's
reorganization in October 1995. The staff assistants have been performing
analyses of the preliminary inquiries conducted on the complaints, although
they are not trained or otherwise qualified to do so. None of the former
FmHA employees with CR&SBUS have position descriptions to reflect their
current duties and responsibilities, and none have received performance
appraisals for fiscal year 1996.
We also noted that CR&SBUS employees have filed grievances with
their union and that two employees have filed four EEO complaints with
the Department alleging discrimination, sexual harassment, or retaliation
by management or members of the staff. In the past couple of years, OIG
has received several whistleblower complaints on employees of CR&SBUS
alleging employee misconduct. The whistleblower complaints are pending.
As a result of the lack of current position descriptions, accountability,
lax supervision, and employees' complaints, morale is low and may be a
contributing factor to the massive backlog of unprocessed complaints.
FSA also has State Civil Rights Coordinators who work complaints as
a collateral duty. In addition, FSA, in January brought in a six member
"Jump" team to help address its backlog of complaints but this
team was suspended after 2 weeks. The agency plans to bring additional
teams in later. To date, the team has spent limited time with CR&SBUS.
To improve the effectiveness of teams like these, the agency should assign
them for periods of at least 60 days. This would allow the team more time
to review and address the complaints. In addition, the team should have
members experienced in farm loan programs since farm loans constitute the
majority of the complaints that are backlogged.
Despite the recent emphasis by FSA on program complaints, CR&SBUS
was unable to provide us with an accurate number of outstanding complaints
or their status. We reviewed the case files and found them generally disorganized.
It was difficult for us to readily determine the date of the complaint,
the reason it was brought, and the status of its resolution.
To determine the number of outstanding complaints for farm programs,
we first reviewed a CR&SBUS report of complaints. We found that it
contained errors and inaccurate information. Therefore, we reviewed each
discrimination case file to develop our own data base to determine the
number of outstanding complaints and their status. Second, we reviewed
a list of outstanding farm program complaints at CREA. This list also contained
inaccurate and outdated information, and we were once again forced to review
each file to obtain current information. Third, we reconciled our CR&SBUS
list with the list we developed at CREA. To present an overall picture
of the backlog, we combined the two listings to show the status of the
cases as found at each agency. (See attachment A.) Our data base included
complaints filed for discrimination in the farm loan programs as well as
complaints filed for other programs in FSA and the Commodity Credit Corporation.
Our review at the CR&SBUS and CREA disclosed that, between them,
they had listed a total of 272 cases as being active. The oldest case listed
dates back to 1986. We initially believed that this case had not been processed
by CR&SBUS; however, our review at CREA found that the complaint had
been closed since 1994. The case file maintained by CR&SBUS did not
contain correspondence to disclose that the case was officially closed.
After resolving all duplications and determining the actual status of the
272 cases, we found that FSA had 241 cases of program discrimination complaints
that had not been resolved.
During our reconciliation of the two agencies' lists, we noted that
some cases were listed by one or the other agency but could not be found
in its filing system. CR&SBUS listed 32 cases that we could not find
in its filing system, and CREA listed 28 cases that we could not find in
its filing system. We also noted that CR&SBUS listed cases unknown
to CREA. CR&SBUS listed 19 cases that CREA did not list.
CREA had officially closed 30 of the 272 cases with findings of no discrimination.
CREA had also closed one case with a finding of discrimination, and the
complainant was compensated. The case involved the FSA disaster program,
and the complainant received the benefits which were at first denied by
FSA. Four of the remaining 241 cases had findings of discrimination as
determined by CREA and are pending resolution. One of the four complainants
has not responded to the Department's written notice regarding filing a
claim for compensation. Office of Operations officials are negotiating
a settlement with the remaining three complainants.
We found that FSA improperly closed and forwarded 30 complaints to program
managers without notifying the Department (26 of these 30 cases were closed
under the old FmHA agency management). The civil rights staff concluded
without first receiving concurrence from the Department that these cases
were the result of "programmatic discrepancies" (i.e., agency
error) rather than civil rights violations. Without departmental concurrence
with its findings, the agency may not have addressed legitimate cases of
discrimination. CREA has the responsibility to make final determination
of program discrimination. FSA may recommend to CREA that cases be closed,
but it does not have the authority to close these cases without concurrence
from CREA.
For example, we noted that in one instance FSA (the former FmHA) incorrectly
concluded that a case had only programmatic concerns and closed the case
without forwarding it to the Department. Only after a civil rights staff
member complained did FSA process the case as a civil rights discrimination
case. The civil rights staff stated in a letter that the allegation of
racial discrimination was overlooked. The mixup was discussed with the
Department, which determined that the case should be processed by the civil
rights staff. For most of the remaining cases, we found no documentation
in the case files at FSA that the Department has reviewed these cases.
The following table summarizes the average age of the 241 cases we consider
open because they were not officially closed by the Department.
No. of Cases
Program
Average Age
151
Ag. Credit
(Farm Loans)
703 Days
40
Disaster
485 Days
50
Others
482 Days
Of the 241 open cases, 139 (58 percent) were known to be over 1 year
old. Of the 241 cases, 129 (54 percent) are awaiting action in FSA; the
remaining 112 cases (46 percent) are in the hands of the CREA staff in
USDA's Office of Operations. Sixty-five of the cases at FSA (50 percent)
need a preliminary inquiry. Some of these date back to 1993.
CR&SBUS has no procedures in place to reconcile or track the status
of complaints after they are forwarded to CREA. Therefore, CR&SBUS
could not tell us the status of complaints at CREA. As noted above, both
CR&SBUS and CREA had different numbers and were not aware of all the
outstanding complaints.
CR&SBUS also needs to incorporate procedures for processing discrimination
complaints for farm loan programs into its internal procedures. Staff is
currently using a handbook developed by the former Agricultural Stabilization
and Conservation Service for Commodity Credit Corporation programs. It
has supplemented this obsolete material with draft procedures for farm
loan programs. None of these procedures established timeframes for conducting
the analysis of the preliminary inquiry. The lack of a reliable tracking
system or timeframes for all phases of the process within FSA contributes
to the continuation of the backlog.
CR&SBUS also does not prepare management reports to inform FSA program
managers of alleged problems of discrimination within their programs. Without
this information, program managers may not be aware of potential discrimination
in the programs they are responsible for administering.
Ninety-six farm loan program discrimination complaints were closed since
1993. We considered the case closed if the case file contained a letter
from the Department which stated it was closed. Of these 96 cases, 48 had
been closed by the Department after the agency had performed a preliminary
inquiry. The Department found that 47 complainants had not been discriminated
against and that one had. (This case has not been resolved because according
to the Department, the complainant has filed suit in Federal court.) FSA
conciliated 3 by negotiating a settlement agreement directly with the complainant;
closed 15 because the complainant failed to provide information when requested;
closed another 9 because the complaint was not filed within 180 days of
the alleged discrimination; and closed 21 because the complainant failed
to disclose the basis of the complaint, withdrew the complaint, or died.
Office of Operations - Civil Rights Enforcement and Adjudication
(CREA)
We reconciled our generated data base of FSA discrimination complaints
with the cases at CREA to verify or, in some cases, determine the status
of FSA's outstanding complaints.
As stated previously, we found that the listing of outstanding cases
provided by CREA contained inaccurate information. In some instances we
were unable to locate the case files at CREA that were on its outstanding
case list. Without reviewing the case files, we were unable to verify the
status of the complaints. Also, CREA and FSA had not reconciled their cases,
and neither could inform us of the correct number of outstanding cases.
CREA does not have controls in place to monitor and track discrimination
complaints. When complaints are received they are logged in, given a case
number, and after the agency forwards the preliminary inquiry to CREA,
the case is assigned to one of its seven program specialists. There are
no procedures to require the program specialists to follow up on overdue
responses from the agency. We have found that CREA is not following up
on discrimination cases it returned to FSA for conciliation or performance
of a preliminary inquiry. CREA advises the agency that it has 90 days to
complete its review, but it does not follow up with the agency to determine
the status of the complaint.
Also during our review at CREA we were informed that there is some duplication
of effort between CREA and FSA. For example, in cases where FSA performs
the preliminary inquiry and analysis, CREA re-analyzes the preliminary
inquiry and makes its own determination. In some instances, CREA requires
FSA to redo the preliminary inquiry or obtain additional documents to support
the agency conclusions. The seven program specialists at CREA process discrimination
complaints for the entire Department. A farm program discrimination complaint
could be assigned to any one of the seven program specialists, regardless
of that specialist's familiarity with the program.
In addition, we were informed that the complainant is left out of the
process and generally does not hear anything until the final decision is
made by CREA, which in some cases has taken years.
Other Departmental Agencies with Program Complaints
In addition to reviewing FSA and CREA, we surveyed 10 other USDA program
agencies to determine the procedures used for processing program discrimination
complaints. We also wanted to determine the number, status, and time elapsed
since the complaints were filed.
Information provided in response to our survey further supports the
need for Departmentwide policy and guidance on complaints processing. We
found that agencies generally lacked established timeframes for completing
the various stages in the process or did not adhere to them. Furthermore,
agencies generally did not have effective systems for tracking and ensuring
that complaints were processed in an efficient and proper manner.
Regarding the number, status, and time elapsed since the filing of complaints,
we determined that the Rural Housing Service/Rural Business Cooperative
Service (one staff handles complaints for both Services) had a backlog
of 233 complaints. Of these, 139 (60 percent) had been filed by complainants
more than 1 year ago. As of January 6, 1997, the time elapsed for complaints
in the system ranged from 38 days to 2,600 days (7 years and 3 months).
The staff was not able to provide information about the status of the complaints.
The Rural Utilities Service, the Forest Service, and the Natural Resources
Conservation Service had a combined total backlog of 40 cases. Thirty-one
of these were filed by complainants more than a year ago. Two cases at
the Animal and Plant Health Inspection Service have been in the system
for over a year. On the other hand, the Food and Consumer Service had a
backlog of only 14 complaints, all of which were filed by complainants
less than a year ago. The Grain Inspection, Packers, and Stockyards Administration;
the Agricultural Marketing Service, and the Food Safety and Inspection
Service had no outstanding complaints.
Attachment B contains a list of outstanding program discrimination complaints
within the Department.
We concluded that the Department should take immediate actions to address
the current backlogs. Although a comprehensive plan is needed to address
the causes of these backlogs for the long term (see Issue No. 2), we believe
immediate actions are needed to help restore integrity and confidence in
the Department's ability to effectively act on program complaints.
Efforts by agencies to reduce their backlogs of program complaints will
result in an increase in the workload at CREA as preliminary inquiries
are completed and forwarded to CREA. Therefore, the effort should be directed
and controlled by an ad hoc team reporting to the Secretary or Deputy Secretary.
This level of attention is needed to ensure that the complaints are effectively
addressed in a fair and objective manner. The overall departmental action
plan should assign specific tasks and timeframes for addressing the backlogs.
IMMEDIATE ACTIONS NEEDED
1. The Secretary should convene an ad hoc team headed by a high-ranking
departmental official acting on behalf of the Secretary. The team should
take control of the backlog of complaints at the agencies and at CREA.
The team should consist of agency program specialists detailed for a minimum
of 60 days to process complaints until the Secretary determines that the
backlog is at a manageable level. The team should report directly to the
Secretary on a weekly basis and should at a minimum do the following.
(a) Send a letter signed by the Secretary to all complainants whose
cases have not yet been resolved assuring the complainants that action
will be taken. The letter should include an assigned case file number and
the name and phone number of a responsible person who knows the general
status of the case.
(b) Immediately assume control of the FSA program complaint system and
evaluate the adequacy of FSA's civil rights staffing to carry out its civil
rights mandate.
(c) Reevaluate all discrimination complaints closed and forwarded to
program managers by FSA without concurrence from CREA.
(d) Determine the number of outstanding program complaints at FSA and
other departmental agencies with the assistance of the agencies and CREA.
(e) Develop a data base for the outstanding program complaints. The
data base should contain the status of a complaint, the official responsible
for processing the case, the actions taken to date, the actions needed
to resolve the complaint, the days taken to complete specific tasks, and
the age of the complaint.
(f) Process complaints still at the agency level. This would primarily
involve performing preliminary inquiries and readying cases for the final
analysis to determine if the complainants have been discriminated against.
(g) Help CREA reduce the backlog of complaints at the departmental level.
This would include conducting analysis of preliminary inquiries and recommending
findings of discrimination or nondiscrimination. Program specialists should
not analyze their own preliminary inquiries. CREA management should make
the final determination of discrimination or nondiscrimination.
(h) Evaluate each agency's civil rights staffing to determine if the
agency has committed adequately trained staff and has adequate procedures
to process complaints. The agency procedures should hold staff responsible
for processing complaints within established timeframes. If agency staffing
is not sufficient to process complaints within prescribed timeframes, the
ad hoc team should recommend to the Secretary that the civil rights functions
for processing complaints be transferred to the Department.
ISSUE NO. 2 - COMPREHENSIVE PLAN NEEDED TO ADDRESS FUTURE PROGRAM
COMPLAINTS
The Department does not have adequate controls over the receipt, processing,
and resolution of program complaints within its civil rights complaint
processing system. Furthermore, the Department's civil rights policy and
guidance is fragmented, and the complaint review process itself needs centralized
control and direction. For FSA, as well as for other agencies within the
Department, three USDA staffs share the functions related to the resolution
of discrimination complaints, including those related to Title VI, discrimination
on the basis of race, color, or national origin. Overall accountability
for complaint resolution does not reside with any one staff.
Civil Rights Enforcement and Adjudication (CREA)
CREA, a unit in the Office of Operations, and the Policy Analysis and
Coordination Center (PACC), a separate agency within the Department, performs
functions that were once centralized at the former Office of Civil Rights
and Enforcement. PACC is currently responsible for civil rights policy
and oversight, while CREA is responsible for reviewing discrimination complaints
and making determinations of program discrimination. We believe there is
merit in having CREA merge with PACC, since PACC has the larger oversight
responsibility and a merger would result in a more centralized operation.
We also concluded that the Director of PACC should report directly to the
Secretary or Deputy Secretary of Agriculture.
Because there is no centralized authority for discrimination complaints
within the Department, there is also no centralized data base with which
to monitor the status of discrimination complaints on a daily basis. Department
agencies do not coordinate with CREA on the status of discrimination complaints,
and they have not reconciled the number of outstanding complaints.
Policy Analysis and Coordination Center (PACC)
PACC is responsible for monitoring and coordinating departmental agencies'
enforcement of discrimination violations, including those related to Title
VI. The Department has codified regulations which state its civil rights
policy. USDA's Title VI regulations, 7 CFR part 15, have the necessary
elements (for example, a list of prohibited forms of discrimination) to
form a basis for the Department's Title VI enforcement program. However,
the regulations do not reflect the current departmental agencies, programs,
and laws. The regulations also give the former Office of Advocacy and Enterprise
(now CREA) the responsibilities for investigating discrimination complaints
and making initial determinations as to the merits of complaints, even
though these functions have been currently delegated to the agencies.
Although agencies have been given the responsibility to investigate
discrimination complaints made against their own programs, the Department
has not provided procedural guidance to the agencies. The current Departmental
Regulation 4330-1, dated June 27, 1986, does not provide policy and guidance
for processing Title VI program discrimination complaints. As we noted
earlier in this report, we brought this situation to the attention of the
former Office of Civil Rights and Enforcement in a December 12, 1994, management
alert, but corrective action has not yet been implemented.
PACC is the current agency responsible for providing guidance to departmental
agencies and has drafted a revision of the Departmental Regulation for
Civil Rights Compliance Reviews and Complaint Processing (Departmental
Regulation 4330-1) that may serve as a basis for processing discrimination
complaints. However, the draft regulation needs to be further modified
to form a comprehensive solution to effectively deal with complaints.
PACC is also required to make systematic evaluations of agencies' civil
rights programs. These evaluations, called compliance reviews, are monitoring
tools to assess the agencies' civil rights activities and to review the
effectiveness of their enforcement of civil rights laws. We found that
PACC has not conducted compliance reviews of most agencies in the past
several years. PACC (the former Office of Civil Rights Enforcement) conducted
only six compliance reviews in fiscal years 1994 and 1995 and none in fiscal
year 1996. A PACC official stated the shortage of staffing and lack of
training as the reasons for not fulfilling this responsibility. We were
also told that compliance reviews will not be conducted in fiscal year
1997 due to a lack of funding.
Finally, PACC is responsible for overseeing the agencies' training programs
and developing training materials. A PACC official informed us that this
function has not been given adequate attention due to the lack of staffing
and resources. We concluded that more should be done in this area to ensure
that all civil rights staffs are trained on civil rights requirements.
Farm Service Agency (FSA)
FSA monitors the effectiveness of its civil rights activities through
management evaluation reviews of its county offices. A team consisting
of program specialists from FSA's Civil Rights and Small Business Utilization
Staff (CR&SBUS), EEO specialists, and personnel from the State offices
are assigned to perform the management evaluation reviews. The team currently
uses a review guide developed by the former Agricultural Stabilization
and Conservation Service. The guide was developed for programs administered
by the Commodity Credit Corporation and does not include guidance on farm
loan programs inherited from the former FmHA. We concluded that these reviews
were useless for monitoring or enforcing civil rights requirements for
farm loan programs.
Ten management evaluation reviews of States' compliance with civil rights
laws were conducted in fiscal years 1995 and 1996 at a total cost of about
$87,000. The review teams, which consisted of county office employees and
CR&SBUS and FSA State personnel, visited up to 31 counties in 9 days
reviewing Title VI elements such as public notification and access to facilities
by the disabled. Reports that were issued for these reviews included corrective
actions for areas of noncompliance found during the reviews. The FSA State
office is required to provide CR&SBUS with a corrective action plan
in 60 days of receipt of the report. We found that only 2 of the 10 States
reviewed responded and that CR&SBUS did not followup with the States
to determine if corrective action was taken.
Before September 1996, FSA employees designated to serve as State Civil
Rights Coordinators were not trained to conduct preliminary inquiries and
could not perform them. In September 1996, the State coordinators received
approximately 40 hours of civil rights training. Due to the magnitude of
FSA's complaint backlog and the length of time some complaints have been
pending, 40 hours of general training may not be enough. The State coordinators
do not devote 100 percent of their time to civil rights issues; more preparation
may be needed before they become proficient in conducting preliminary inquiries.
Only 20 percent of their time is designated for conducting preliminary
inquiries and attending to other civil rights issues. This may cause delays
in reducing FSA's complaint backlog and contribute to the continuation
of the backlog.
LONG-TERM ACTIONS NEEDED
1. A uniform system is needed within the Department that holds designated
USDA officials responsible and accountable for the receipt, processing,
and resolution of program complaints within established timeframes. This
system needs to be monitored, controlled, and evaluated by a unit within
the Department that reports directly to the Secretary or Deputy Secretary.
2. A master data base for program complaints should be maintained at
the departmental level. The data base should include the type of complaint,
program involved, key dates associated with the complaint process, status
of the complaint, age of complaint, location of complainant, and other
key data elements. Each complaint should be assigned a unique case number
which would also be recorded in the data base and used to monitor the case
from receipt to resolution. This data base should be shared with agencies
on a periodic basis to ensure its accuracy.
3. A weekly distribution of an aging report of complaints should be
sent to responsible officials. This report should be used as a management
tool to identify trends or situations in need of attention.
4. Case files need to be standardized. For example, correspondence should
be kept together and arranged chronologically, running records should act
as indices, etc. The case files also need to be secured and a record maintained
showing who has logged out any files for official use.
5. Federal and departmental regulations on processing program discrimination
complaints need to be updated and published.
6. Agencies should develop a comprehensive management evaluation review
system designed to evaluate civil rights compliance at all agency levels.
Copies of attachments A and B are available by calling Dianne Smith
on (202) 720-6915.
ATTACHMENT C
February 26, 1997
Roger C. Viadero
Inspector General
U.S. Department of Agriculture
Washington, DC 20250
Dear Roger:
Thank you for your evaluation report no. 50801-2-Hq(1). I also appreciated
the briefing you provided on the contents of the report. This report provides
extremely valuable information as we move forward with what is likely to
be the most aggressive civil rights agenda in Government. I find that your
report substantially supports the findings and recommendations of the Civil
Rights Action Team (CRAT) report.
As you know, I am deeply concern about allegations that USDA is not
delivering its programs in ways that live up to the spirit and letter of
the relevant civil rights laws, regulations, and policies of the United
States. While your report does not address the merits of these allegations,
it does confirm that the program discrimination complaint process at the
Farm Service Agency lacks integrity, direction, and accountability. After
reviewing your report, it is clear that Department wide policy and guidance
is needed on many aspects of the complaints processing system.
I am asking that Pearlie Reed, who will direct the implementation of
the recommendations of the CRAT, work closely with you and the Office of
Inspector General staff to assure that your concerns and recommendations
are addressed fully. The immediate actions you suggest will be helpful
as the implementation team designs a plan to reduce the backlog of civil
rights program complaints within the Department. The long term actions
included in your report fully conform with the CRAT findings and recommendations.
Again, thank you for the expeditious action you took to address the
issues which I asked you to review. The task at hand is great, if not monumental.
We can all look forward to a better USDA as a result of the actions which
will begin with release of your report, and the CRAT report.
Sincerely,
/s/
DAN GLICKMAN
Secretary of Agriculture
cc: Pearlie Reed
Team Leader, Civil Rights Action Team